  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




Problems Pervade the Renal Beneficiary
       and Utilization System




                      JANET REHNQUIST
                       Inspector General

                        FEBRUARY 2002
                        OEI-07-01-00250
                            OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG) mandated by Public Law 95-452, as amended
by Public Law 100-504, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This statutory mission is
carried out through a nationwide program of audits, investigations, inspections, sanctions, and fraud
alerts. The Inspector General informs the Secretary of program and management problems and
recommends legislative, regulatory, and operational approaches to correct them.

                             Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Kansas City office prepared this report under the direction of Brian T. Pattison, Regional
Inspector General. Principal OEI staff included:

Region                                                               Headquarters

Madeline Carpinelli, Chicago, Program Analyst                        Bambi Straw, Program Specialist
Brian T. Whitley, Kansas City, Program Analyst




       To obtain copies of this report, please call the Kansas City Regional Office at (816) 426-3697.
               Reports are also available on the World Wide Web at our home page address:

                                           http://oig.hhs.gov/oei/
                           EXECUTIVE                      SUMMARY

PURPOSE

          To describe the state of the Renal Beneficiary and Utilization System and to evaluate how the
          system and resulting data are used.

BACKGROUND

          End Stage Renal Disease (ESRD), characterized by a permanent loss of kidney function, is the
          only basis for entitlement to Medicare based on the presence of a specific medical diagnosis.
          The ESRD beneficiaries are entitled to full Medicare benefits as well as the services Congress
          specifically allows for these beneficiaries (e.g., dialysis, transplant procedures, selected
          pharmaceuticals, and nutrition supplies). At the end of 1999, the ESRD population in the
          United States had climbed to approximately 329,000, with Medicare expenditures of $11.3
          billion. In the next 10 years, the number of individuals with ESRD, as well as Medicare
          expenditures, is projected to double.

          The Centers for Medicare & Medicaid Services (CMS) is charged with the administration of
          the ESRD Program. Within CMS, the Information Systems Group manages the operation of
          the legislatively mandated system covering medical and demographic information for the
          Medicare ESRD population, the Renal Beneficiary and Utilization System (REBUS).

          The REBUS is intended to serve as a source of ESRD information, consolidated from various
          data providers. The main function of REBUS is to maintain data used in the determination of
          Medicare entitlement, including disenrollment, death, transplant, and dialysis treatment data.
          The REBUS also supports program analysis, policy development, program operations, and
          epidemiologic research. We were alerted to problems with REBUS when we experienced
          complications attempting to access data from the system for another inspection. Given the
          critical nature of the system, we examined the status of REBUS and evaluated the effects that
          data and communication problems have on data providers and end users.

FINDINGS

Datasets Within the Renal Beneficiary and Utilization System are Out-of-date,
Incomplete, and Inaccurate

          Problems existed with 9 of the 12 REBUS datasets within the 12 months prior to the
          completion of our fieldwork (August 2001). Although CMS has taken steps to update some
          datasets, problems continue. The most common problem with REBUS datasets is that they are
          out-of-date, thus leading to incomplete and inaccurate data.


Renal Beneficiary and Utilization System Review   i                               OEI-07-01-00250
Data Problems Result in Duplication of Effort, Delays, and Program Vulnerabilities

          Due to data problems with REBUS, some groups are requesting data already provided to
          CMS directly from the data providers. Representatives from the United States Renal Data
          System (USRDS) reported that their 2001 annual report, which presents national ESRD data,
          was delayed due to shortcomings in the REBUS data. Representatives from both CMS and
          the USRDS stated that when the dataset regarding Transplant Follow-up was not current,
          CMS did not have the information needed to terminate beneficiaries who had undergone
          successful transplants, thus resulting in an estimated 50,000 individuals continuing to receive
          Medicare benefits beyond their period of eligibility. In addition, incomplete Patient Status data
          has led to termination of ESRD benefits for beneficiaries enrolled in managed care plans.

Data Problems are the Result of Historical Complications, a Lack of Resources,
and an Outdated Database

          Data problems have plagued the ESRD Program since its inception in 1973. The CMS has
          reorganized several times, resulting in changes in the components responsible for operation and
          oversight of REBUS. During these reorganizations, key staff members were reassigned,
          including the two original architects of REBUS. In addition, the REBUS uses an outdated
          programming language, and there are few programmers who have the expertise to work with
          such a system. Due to its age and programming language, REBUS is incompatible with the
          modernized systems with which it is supposed to exchange data.

Lack of Defined Roles and Relationships Leads to Poor Communication

          Representatives from the primary organizations providing data for or using data from REBUS
          (e.g., the ESRD Networks, United Network for Organ Sharing, and the United States Renal
          Data System) noted long standing communication problems with CMS. Representatives said
          that few meetings are held to discuss data quality issues. The CMS representatives agreed that
          communication with some groups may be lacking.

RECOMMENDATIONS

          The CMS is well aware of problems within REBUS. The CMS has expended considerable
          effort maintaining and updating REBUS, and steps have been underway for some time to
          develop a replacement system. Considering the history of data problems with REBUS and the
          various delays that have stalled the implementation of the replacement system, we recommend
          that CMS:

Develop a Strategic Plan for Addressing ESRD Data Management

          The strategic plan should build on CMS’s current efforts to address data shortcomings. At a
          minimum, the plan should address the following four areas:



Renal Beneficiary and Utilization System Review    ii                               OEI-07-01-00250
 <        Short and Long-Term Targets

          The CMS’s strategic plan should address target dates for updating REBUS and restoring out-
          of-date datasets. In addition, the plan should establish realistic target dates for the completion
          of the replacement system and the transfer of data from REBUS into this system.

 <        Data Needs

          Problems with the timeliness, completeness, and accuracy of some datasets within REBUS
          raise questions as to the importance of these datasets to the operation of CMS’s ESRD
          program. The CMS should assess internal data needs and the needs of external data users to
          determine the appropriateness of CMS maintaining these data.

 <        Efficiency of Data Distribution

          Within the constraints of the Privacy Act and other applicable laws and regulations, CMS
          should reassess where and how ESRD users obtain needed data. If CMS decides that it is
          most appropriate for end users to obtain data directly from the source, it should factor in this
          decision when determining which datasets should be retained.

 <        On-going Communication

          The CMS should establish regular, periodic meetings to discuss ESRD data management issues
          with internal and external data providers and end users.

Coordinate with the Social Security Administration to Address Errors in Basic
Beneficiary Information

          According to CMS representatives, SSA has given low priority to correcting errors in ESRD
          beneficiary records. The CMS may want to consider holding high-level meetings with SSA to
          develop a mutually acceptable solution for addressing problems with basic beneficiary
          information.

AGENCY COMMENTS

          In its written response to our report, CMS acknowledged limitations with REBUS and
          concurred with our recommendations. The CMS highlighted various actions taken since
          completion of our draft report, including devising short and long-term strategic plans, initiating
          meetings with data providers and users, and reaching agreements to reduce or eliminate non-
          essential data transfers. In addition, CMS is now encouraging various data users to seek
          information directly from the source rather than relying on CMS’s system.

          We made minor changes to reflect technical comments received from CMS. The full text of
          CMS’s comments are included in Appendix A.



Renal Beneficiary and Utilization System Review     iii                               OEI-07-01-00250
                             TABLE OF CONTENTS

                                                                                                                                  PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS

Out-of-date, Incomplete, and Inaccurate Datasets . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


Duplication of Effort, Delays, and Program Vulnerabilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


Historical Complications, Lack of Resources, and an Outdated Database . . . . . . . . . . . . . . . . . . . . 11


Poor Communication . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12



RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14



AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16



APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

                                         INTRODUCTION

PURPOSE

          To describe the state of the Renal Beneficiary and Utilization System and to evaluate how the
          system and resulting data are used.

BACKGROUND

          This inspection topic stems from complications faced while attempting to access data from the
          Renal Beneficiary and Utilization System (REBUS), the critical End Stage Renal Disease
          (ESRD) data system, for the planned inspection entitled “End Stage Renal Disease: Method
          Election Vulnerabilities.” Efforts to select a universe of beneficiaries for that inspection were
          compromised by problems encountered with a particular dataset within REBUS. Inquiries to
          the Centers for Medicare & Medicaid Services (CMS) revealed that some datasets in REBUS
          had not been updated in more than 2 years. Concerns about the entire data system developed
          as we were informed that data in other datasets may have been similarly out-of-date and
          incomplete.

End Stage Renal Disease

          End Stage Renal Disease is characterized by a permanent and irreversible loss of kidney
          function requiring either kidney transplantation or regular dialysis treatments in order to survive.
          In 1972, amendments to Title XVIII of the Social Security Act extended Medicare Part A and
          Part B benefits to virtually all individuals with ESRD regardless of age.1 The ESRD program is
          the only Medicare program for which entitlement is based on the presence of a specific medical
          diagnosis.

          The ESRD beneficiaries are entitled to full Medicare benefits as well as services Congress
          specifically allows for these beneficiaries (e.g., dialysis, transplant procedures, selected
          pharmaceuticals, and nutrition supplies). In 1973, the year in which the program was initiated,
          the number of eligible ESRD beneficiaries totaled 10,000. By the end of 1999, the ESRD
          population in the United States had climbed to approximately 329,000, with Medicare
          expenditures of $11.3 billion.2 The number of individuals with ESRD is



          1
           Individuals who suffer from ESRD and are under age 65 may experience a 3-month waiting period prior to
Medicare coverage. In addition, individuals who have coverage under an Employer’s Group Health Plan may
undergo a 30-month period in which Medicare acts as a secondary payer to the Group Health Plan.

          2
           United States Renal Data System, retrieved from the World Wide Web: http://www.usrds.org/atlas.htm
(August 30, 2001).



Renal Beneficiary and Utilization System Review          1                                      OEI-07-01-00250
          projected to double by 2010, surpassing 660,000 individuals, with projected Medicare
          expenditures in excess of $28 billion.3

          The CMS is charged with the administration of Medicare benefits to eligible persons with
          ESRD. Integral to the effective administration and management of this program is the effective
          operation of REBUS, the comprehensive database covering medical and demographic
          information for the Medicare ESRD population.

ESRD Information System

          In 1978, Public Law 95-292, section (c)(1)(A), mandated the Secretary of the Department of
          Health, Education and Welfare to establish a renal disease medical information system. This
          legislation stemmed from the need to calculate utilization rates and serve the administrative
          needs of the expanding program. The resulting system merged data from an existing patient
          dialysis registry, a transplant registry, and Medicare eligibility and claims data from the Social
          Security Administration (SSA).

          The technical design and operation of this data merger proved difficult. An agency report from
          the then Health Care Financing Administration noted that poor contract management, inter-
          office miscommunication, and staff turnover slowed the implementation of the system.4 After an
          internal reorganization, the ESRD program staff began publishing the first series of regular
          reports using the ESRD medical information system in mid-1979. The system was fully
          operational by July 1980.

The Renal Beneficiary and Utilization System

          The REBUS is the interactive tool used to access data within the Program Management and
          Medical Information System, the actual repository for the ESRD program data. This repository
          contains data covering the medical and demographic information for the ESRD population.
          Both CMS and the end users of data commonly refer to both the tool and the repository as
          REBUS, as will we throughout this report. The main function of REBUS is to maintain data
          used in the determination of Medicare ESRD entitlement, including disenrollment, death,
          transplant, and dialysis treatment data. The REBUS also supports program analysis, policy
          development, program operations, and epidemiologic research.




          3
              United States Renal Data System, retrieved from the World Wide Web: http://www.usrds.org/
atlas_2000.htm (August 30, 2001).

          4
              “Implementing the End Stage Renal Program of Medicare,” Richard Rettig, R-2505 HCFA/HEW, September
1980.


Renal Beneficiary and Utilization System Review            2                                      OEI-07-01-00250
          The CMS describes REBUS as:

                     . . . a mission critical system that is used by CMS and the renal community to
                     perform their duties and responsibilities in monitoring the Medicare status,
                     transplant activities, dialysis activities, and Medicare utilization (inpatient and
                     physician-supplier bills) of ESRD patients and their Medicare providers, as well
                     as in calculating the Medicare-covered period of ESRD.

          The REBUS data are used for payment decisions and actuarial projections, as well as serving
          the needs of the research and planning divisions within CMS, including the Center for
          Beneficiary Choices, the Office of Clinical Standards and Quality, The Center for Medicaid and
          State Operations, and the Office of Strategic Planning.

REBUS Structure

          The REBUS is composed of twelve datasets. The information contained within those datasets
          is derived from data exchanges between groups as indicated below. The providers for this data
          are further described on the following page.

 Dataset                       Data Description                                                     Data Source

 Death Notice                  Date, place, and cause of death                                      ESRD Networks

 Facility Certification        Annual provider-specific treatment and transplant data               ESRD Networks

 Identification                Basic beneficiary, entitlement, and ESRD termination data            Social Security Administration

 Inpatient Stay                Hospital stay dates, provider number, surgery information            National Claims History

 Medical Evidence              Medical conditions, lab results                                      ESRD Networks

 Method Selection              ESRD payment method chosen by home dialysis patients                 Common Working File

 Patient Status                Verified renal status, dialysis type, most recent treatment          ESRD Networks
                               setting

 Quarterly Dialysis            Aggregated information for all dialysis claims in the quarter        National Claims History

 SSA District Office           Addresses of local Social Security Administration offices            Social Security Administration

 Transplant                    Date of transplant; organ donor data                                 United Network for Organ
                                                                                                    Sharing

 Transplant Follow-up          Tracks the status of the beneficiaries transplant                    United Network for Organ
                                                                                                    Sharing

 Wait List                     Potential kidney transplant recipients awaiting transplantation      United Network for Organ
                                                                                                    Sharing
                                                                                               Source: CMS Data Users Guide




Renal Beneficiary and Utilization System Review                  3                                      OEI-07-01-00250
REBUS Data Exchanges and Usage

          The REBUS data mostly are created and maintained in other systems, and then periodically
          uploaded into REBUS. Below are descriptions of the various data providers for REBUS,
          followed by descriptions of common users of REBUS. The primary sources of data for
          REBUS and the users of the resulting REBUS data are illustrated below in Diagram 1. A
          discussion of the data sources and external data users follows the diagram.

                                   Diagram 1: REBUS Data Providers and Users




          Data Providers (Internal)

          Enrollment Database -- This database contains information on all Medicare beneficiaries from
          the beginning of the Medicare program in 1966 to the present.

          Common Working File -- Fiscal intermediaries and carriers, which work under contract for
          CMS, use the Common Working File to process claims. The file contains edits to screen
          claims, helping to ensure proper claims processing. These edits, for example, would help
          ensure that ESRD-related claims are supported by a diagnosis of ESRD for the beneficiary or
          that the type of treatment being claimed corresponds with the method of treatment the
          beneficiary selected.

          National Claims History -- This file serves as a single repository for both Medicare Part A
          and Part B claims, which would include 100 percent of ESRD claims. The National



Renal Beneficiary and Utilization System Review     4                            OEI-07-01-00250
          Claims History contains every claim submitted since 1991 along with all adjustment claims.

          Data Providers (External)

          ESRD Networks -- In 1987, Congress mandated the formation of 18 ESRD Networks to
          assist in the collection and verification of patient, facility, and provider data. Dialysis treatment
          facilities complete required HCFA forms, including the HCFA-2728 Medical Evidence,
          HCFA-2746 Death Notification, and HCFA-2744 Annual Facility Survey. These forms are
          then forwarded to the regional Networks for data entry into the Standard Information
          Management System (SIMS), an electronic database implemented in January 2000. This
          system enables all 18 Networks to maintain uniform beneficiary and provider data from their
          respective regions, which are to be periodically uploaded into REBUS.

          Social Security Administration -- The primary source for beneficiary information in CMS’s
          Enrollment Database is SSA, which supplies information for updating the database daily.

          The United Network for Organ Sharing (UNOS) -- The UNOS maintains the nation’s organ
          transplant wait list under contract with the Health Resources and Services Administration
          (HRSA). This data is instrumental in developing organ transplantation policy as well as
          maintaining effective operation of the Organ Procurement and Transplantation Network. The
          Network maintains a national electronic list of patients waiting for organ transplantation and is
          responsible for matching donors and recipients. The UNOS sends their data to CMS, which is
          then loaded into REBUS. The data includes information regarding the donor and recipient, the
          date of the organ transplant, and routine follow-up information on the patient and transplanted
          kidney.

          Data Users (External)

          United States Renal Data System (USRDS) -- In 1986, Public Law 99-509 mandated the
          establishment of a national ESRD patient registry. This registry, the USRDS, formerly operated
          through the University of Michigan and currently operates through the Minneapolis Medical
          Research Foundation, University of Minnesota Twin Cities under contract with the National
          Institutes of Health. The USRDS relies on REBUS as its major source of data on the incidence
          and prevalence of kidney failure, the rates of hospitalization and transplantation, the rates and
          causes of death, and the costs of associated medical care. The USRDS distributes information
          to Congress, several Federal agencies, and the ESRD community through its annual reports.

          Independent Researchers -- The CMS creates Public Use Files used for independent and
          organizational research. The REBUS has been used in a number of ways, including basic
          descriptive epidemiology, analysis of mortality rates, and assessments of programmatic issues,
          such as reimbursement and clinical practice.




Renal Beneficiary and Utilization System Review      5                                  OEI-07-01-00250
          University of Michigan Kidney Epidemiology and Cost Center (KECC) -- The Center uses
          data from REBUS to create facility specific reports for facilities, Networks, and state agencies.
          The Center also creates state specific reports which are used in program operations and
          oversight.

          Social Security Administration -- The SSA receives ESRD termination data from REBUS so
          that it can correctly terminate beneficiaries as their entitlement expires.

The Renal Management Information System (REMIS)

          The CMS is developing a modernized information system to replace REBUS. The
          replacement, REMIS, is expected to improve system access and data quality because it will
          integrate better with updated systems of internal and external data providers. Plans for the
          development of REMIS were announced in December 1999, with the implementation date
          originally set for Spring 2000. Due to delays in the development of REMIS, the current target
          date is Spring 2002.

Other ESRD Work by the Office of Inspector General

          The Office of Inspector General (OIG) has issued several ESRD-related studies. Most
          recently, the OIG released “External Quality Review of Dialysis Facilities: A Call for Greater
          Accountability,” OEI-01-99-00050, June 2000. The study found that CMS does not require a
          core set of facility-specific clinical performance measures, limiting its ability in identifying poorly
          performing facilities. The study also found deficiencies in lines of communication between the
          Networks and State agencies.

          In January 2001, the OIG issued “Review of Separately Billed End Stage Renal Disease
          Hospital Outpatient Laboratory Tests Included in the Composite Rate,” A-01-99-00506, a
          follow-up to the October 1996 report, “Review of Separately Billable ESRD Laboratory
          Tests,” A-01-96-00513. Both reports found that hospital laboratories were reimbursed
          separately for laboratory services already included in the dialysis facility’s composite rate.
          Based on a statistical sample, the 2001 report estimated that $6.1 million was improperly paid
          to hospital laboratories for services provided to ESRD beneficiaries during calendar years 1995
          through 1997.

          The OIG also released three reports focusing on the appropriateness of payments to Health
          Maintenance Organizations for ESRD-classified beneficiaries. In February 1996, the OIG
          issued “Review of Medicare Payments to Health Maintenance Organizations for End Stage
          Renal Disease Beneficiaries,” A-04-94-01090. Later the OIG released “End Stage Renal
          Disease Payments to Health Maintenance Organizations (HMOs),” A-14-9600203, June
          1997, and “Review of HMO Payments-Beneficiaries on Dialysis,” A-14-98-00211, July 2000.
          In each of these reports, the OIG found significant overpayments to HMOs for Medicare
          beneficiaries inappropriately identified as having ESRD due to the enhanced rate received for
          patients in that high-cost category.



Renal Beneficiary and Utilization System Review      6                                  OEI-07-01-00250
METHODOLOGY

          As previously stated, this inspection was an outgrowth of complications faced while attempting
          to access data from REBUS for a planned inspection. Based on the data problems we
          identified through our initial inquiry, we gathered additional information from key stakeholders,
          including the Information Systems Group within CMS’s Office of Clinical Standards and
          Quality, the ESRD Networks, UNOS, USRDS, and KECC. We were able to identify these
          key stakeholders through a CMS issued Data Users Guide which described each dataset of
          REBUS and how the information was exchanged between REBUS and stakeholders.

          Using structured discussion guides, we collected from the Information Systems Group
          information about the concept and design of REBUS, the causes of current and prior data
          problems, and the phase-in plans for REMIS. We collected from external data providers (e.g.,
          UNOS) and data users (e.g., USRDS) their experiences working with REBUS and CMS, the
          challenges they faced accessing and/or submitting data to REBUS, the effect data and system
          problems have had on their operations, and the steps they have taken to overcome these
          problems.

          We analyzed all collected information, comparing the collective experiences of data providers,
          CMS, and data users, along with our own experiences. Our inspection focus was to assess the
          status of the individual REBUS datasets and how problems impact upon the data providers and
          users of the system. We did not test data within REBUS for completeness or accuracy
          because it was not our intent to assess the magnitude of problems so much as to assess the
          nature of the problems.

          We conducted follow-up interviews with CMS regarding the status of REBUS datasets and
          any plans for updating these datasets as a final step in our fieldwork. Therefore, all statements
          related to status and update plans are current as of August 2001.

          We conducted this inspection in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




Renal Beneficiary and Utilization System Review    7                                 OEI-07-01-00250
                                                  FINDINGS

Datasets Within the Renal Beneficiary and Utilization System
are Out-of-date, Incomplete, and Inaccurate

          Problems existed with 9 of the 12 REBUS datasets within the 12 months prior to our fieldwork
          completion (August 2001). The table below provides the status of all REBUS datasets as of
          August 2001, followed by discussions of problems with selected datasets.5

                                             Table 2: REBUS Dataset Status

           Dataset                                Description                     Status          Plans for updating
 Death Notice                       Date, place, and cause of death           Current           N/A

 Facility Certification             Annual provider-specific treatment        Current           N/A
                                    and transplant data

 Identification                     Basic beneficiary information,            Not Current       Dependent on other
                                    entitlement and ESRD termination                            datasets
                                    data

 Inpatient Stay                     Hospital stay dates, provider             Not Current       Up-to-date within 1
                                    number, surgery information                                 month

 Medical Evidence                   Medical conditions, lab results           Current           N/A

 Method Selection                   ESRD payment method chosen by             Not Current       Data needs to be
                                    home dialysis patients                                      uploaded

 Patient Status                     Verified status, dialysis type, most      Not Current       Up-to-date within 3
                                    recent treatment setting                                    months

 Quarterly Dialysis                 Aggregated information for all            Current 6         N/A
                                    dialysis claims in quarter

 SSA District Office                Address of local SSA offices              Not Current       No plans to update

 Transplant                         Date of transplant, organ donor           Current6          N/A
                                    data

 Transplant Follow-up               Tracks status of beneficiary              Current6          N/A
                                    transplant

 Wait List                          Potential kidney transplant               Not Current       Up-to-date within 3
                                    recipients awaiting transplant                              months




          5
              The status of REBUS datasets as of December 21, 2001, as reported by CMS, is included in Appendix A.

          6
              These datasets were out-of-date during the prior 12-month period.


Renal Beneficiary and Utilization System Review               8                                   OEI-07-01-00250
The Method Selection dataset is more than 2 years out-of-date

          We found that the Method Selection dataset, which indicates the payment method and the
          source of dialysis supplies for home dialysis beneficiaries, was more than 2 years out-of-date at
          the time of this review. We initially identified problems with this dataset when we attempted to
          select a universe of beneficiaries for the “End Stage Renal Disease: Method Election
          Vulnerabilities” inspection. The CMS representatives reported that, although they have since
          collected the historical data needed to update the dataset, they have yet to upload the data to
          bring the dataset up-to-date. Therefore, in order to obtain the method selection data needed
          for the aforementioned inspection, we have requested data directly from the Common Working
          File, which supplies REBUS with this data.

Systems incompatibility with the United Network for Organ Sharing has led to out-
of-date and incomplete transplant data in REBUS

          The three datasets pertaining to organ transplantation (Transplant, Transplant Follow-up, and
          Wait List) are further examples of datasets which are out-of-date, leading to incomplete data.
          In January 2000, UNOS changed both the layout within their database and the method they use
          to submit data. The CMS was unable to upload this reformatted data into REBUS, which led
          to the datasets becoming out-of-date. After rewriting the process of accepting the UNOS
          data, CMS has reported they are now posting data to the Transplant and Transplant Follow-up
          datasets in a timely manner; however, problems still remain with the Wait List dataset. Because
          Medicare beneficiaries with successful transplants are limited by law to 36 months of post-
          operative coverage, the data UNOS supplies are essential for determining continued Medicare
          eligibility for patients with transplants.

Incomplete Patient Status data in REBUS may lead to termination of ESRD
beneficiaries enrolled in managed care plans

          Representatives from the CMS regional offices alerted us to the potential of ESRD beneficiaries
          enrolled in managed care plans having their benefits inadvertently terminated because of
          incomplete data in the Patient Status dataset. The CMS relies on automated systems to
          determine the continued eligibility of ESRD beneficiaries. These systems rely on both claims
          activity (an estimated 15 percent of the Medicare ESRD beneficiaries are enrolled in managed
          care plans, meaning that these beneficiaries do not have individual dialysis claims filed for their
          treatments) and Patient Status data. The CMS formerly relied on the Networks’ bi-annual
          facility census to verify the status of patients. However, with the implementation of SIMS, the
          Networks no longer send this information. The REBUS is supposed to load the information
          continuously from SIMS, but the system is incompatible with SIMS and is unable to upload
          information directly. Therefore, patient status information in REBUS remains incomplete.
          Managed care beneficiaries run the risk of incorrect termination of benefits because CMS will
          terminate eligibility after 12 months of no claims activity and no update in Patient Status
          information.




Renal Beneficiary and Utilization System Review    9                                 OEI-07-01-00250
Basic patient information in the Identification dataset is inaccurate

          The Networks, CMS, and USRDS all acknowledged problems with data in the Identification
          dataset. Information for this dataset is uploaded daily into REBUS based on information
          received from SSA. The ESRD Networks also maintain beneficiary identification information
          derived from the facility and patient forms. For several years, the SSA and Network data have
          not matched. During this time, CMS generated reports of non-matching data and sent these to
          both SSA and the Networks for verification or correction, as appropriate. The CMS officials
          reported that they have held discussions with various components within SSA regarding data
          errors. In addition, the Networks have and continue to report that they find their information is
          correct. Because the information in the Identification dataset is overwritten nightly based on
          information received from the SSA Master Beneficiary Record, it is not possible to correct the
          information in the Identification dataset permanently unless the SSA corrects its data. The SSA
          acknowledges that data corrections are a low priority unless the data directly effects beneficiary
          benefits and so data problems remain unresolved.

Data Problems Result in Duplication of Effort, Delays, and
Program Vulnerabilities

          We found that problems with REBUS data have created complications for data users. For
          example, CMS requires the ESRD Networks to produce annual reports. Sections of these
          reports are based on transplant information. As previously stated, transplant data from UNOS
          was, for a time, not loaded into REBUS. The Networks had to request the information directly
          from UNOS to complete their annual reports, which resulted in UNOS producing the same
          data twice. In addition, UNOS representatives reported that such work results in additional
          charges to the HRSA-administered contract.

          The USRDS reported that its 2001 annual report was delayed due to shortcomings in the
          REBUS data. Representatives stated that some of the datasets they received had not been
          updated for some time. Because of outdated datasets, the USRDS had to obtain information,
          which should have been maintained in REBUS, from other sources to supplement the missing or
          incomplete data.

          Moreover, problems with specific datasets in REBUS have created program vulnerabilities.
          The CMS reported delays in updating the Transplant Follow-up dataset, which tracks ESRD
          Medicare beneficiaries after transplantation. Beneficiaries who have undergone a kidney
          transplant are eligible for Medicare benefits for a statutorily set period of 36 months. If the
          transplant is successful, coverage should be terminated after the 36-month period.
          Representatives from both CMS and USRDS estimate that past problems with updating the
          Transplant Follow-up dataset has allowed an estimated 50,000 individuals with successful
          transplants to continue receiving Medicare benefits beyond their period of eligibility. Now that
          the Transplant Follow-up dataset is current, CMS representatives report that ESRD
          beneficiaries with successful transplants are being terminated properly. (The CMS



Renal Beneficiary and Utilization System Review    10                                 OEI-07-01-00250
          representatives stated that their plans are to retroactively adjust all individuals no longer entitled
          to Medicare due to successful transplants coverage, but not to collect any lost funds.)

Data Problems are the Result of Historical Complications, a
Lack of Resources, and an Outdated Database

          Data problems have plagued the ESRD Program since its inception in 1973. As previously
          stated, CMS experienced problems in the development of the original ESRD data system.
          While REBUS has centralized much of the data, many of the earlier identified problems remain.
          For example, in a report to the Secretary of Health, Education and Welfare in 1980, the history
          of the original ESRD system is described:

                     . . . at no time in the design, development, or operation of the system was sustained,
                     informed policy direction given to the system. Consequently, issues of feasibility, need,
                     and cost either went unanalyzed or were poorly investigated. [There was no] sufficient
                     authority or power to give policy leadership . . . furthermore, familiar problems of the
                     existing Medicare system nourished a belief that a new system could be created which
                     would avoid these problems and that awarding an external contract was the means to
                     this end.7

          Although this is a description of the complications faced from 1973 to 1979, many of the
          problems are similar to those CMS currently experiences. The plan for the transfer to REMIS
          was first announced in the “Information Technology Architecture Sketches” newsletter in July
          1999, with plans for implementation by Spring 2000. Two years later, the transfer still has not
          occurred.

          The CMS cited various reasons for this delay. In 1997, CMS undertook an agency-wide
          reorganization, which resulted in the operation and oversight of REBUS moving from the Office
          of Information Systems to the Office of Clinical Standards and Quality. In this move, several
          crucial staff members were reassigned, including the two original architects of REBUS. Since
          this time, there have been numerous staffing changes, with new members frequently lacking
          experience in the ESRD program. Continuous staffing turnover and general lack of expertise
          have contributed to data problems.

          The CMS has made efforts to address some of these shortcomings. The agency has re-hired
          one of the original architects of REBUS and has contracted with a private company to develop
          REMIS.




          7
              “Implementing the End Stage Renal Program of Medicare,” Richard Rettig, R-2505-HCFA/HEW,
September 1980.


Renal Beneficiary and Utilization System Review         11                                     OEI-07-01-00250
Obsolete technology renders REBUS incompatible with other systems and makes
the system difficult to maintain

          The REBUS was created in 1980 to run as a mainframe application. Now, more than 20 years
          later, individuals with whom we spoke noted problems with the age of the system, its
          incompatibility with other systems, and the difficulty of finding programmers who know the
          programming language used to create the system. Each of these hinders CMS’s ability to keep
          data within the system up-to-date.

          The CMS has had to take special steps to allow data to be updated from several sources.
          Staff reported the three datasets they have been able to fix (Quarterly Dialysis, Transplant, and
          Transplant Follow-up) have all taken extra effort, such as rewriting the program and manual
          uploading. Staff also stated that the remaining five datasets plan to be up-to-date by the end of
          calendar year 2001. It is unclear, given competing priorities, if CMS will meet these target
          dates.

Lack of Defined Roles and Relationships Leads to Poor
Communication

          Despite CMS’s reliance on external providers for REBUS data, representatives from each of
          the external groups with whom we spoke cited long standing communication problems with
          CMS. For example, even though UNOS is a major supplier of data and USRDS is a major
          user of REBUS data, there are no formalized communications between these two groups with
          CMS. The CMS representatives reported the occurrence of infrequent meetings to discuss
          data quality issues with UNOS or USRDS, but stated the reason for no formal communications
          with either organization is because they are under contract with HRSA and the National
          Institutes of Health, respectively, making regularly scheduled meetings inappropriate.

          The lack of communication with CMS has frustrated representatives of UNOS and USRDS.
          The UNOS representatives reported the inability of CMS to load their transplant and wait list
          data into REBUS. The UNOS representatives believed regular communications could have
          prevented many of these problems. Representatives from the USRDS expressed frustration
          with learning that CMS knew of data problems, but did not share them with data users. The
          USRDS representatives said that they made efforts to verify the accuracy of data, and, after
          identifying the problems, contacted CMS only to learn that CMS was already aware of the
          problems.

          Networks also noted communication problems and stated their desire for more formalized
          contact with CMS. Although CMS representatives reported that they hold quarterly
          conference calls and that individual Networks are welcome to participate, Network
          representatives seemed unaware of these calls. The Networks are looking for a forum to
          express their concerns with their role. For example, CMS is in the testing phase of this new
          data system, the Vital Information System to Improve Outcomes in Nephrology or VISION.
          This system will allow facilities to electronically submit all facility and patient


Renal Beneficiary and Utilization System Review   12                                 OEI-07-01-00250
          information, thus replacing the need for the Networks’ to enter the data from the paper forms.
          Although CMS sees this as a way of streamlining the data entry process, Networks
          representatives with whom we spoke believe VISION will replace their role of editing and
          reconciling the data.

          Staff within the CMS acknowledged the validity of the Networks’ complaints regarding
          communication, and stated that the group is working to improve communication. The CMS
          representatives reported they are in the process of assembling several workgroups with
          representatives from CMS, both headquarters and regional offices, and the ESRD Networks to
          encourage communication. The workgroups are being formed to “address current ESRD
          concerns and functionality of the Standard Information Management System software
          application” and to “. . . improve communication between CMS and the Networks regarding
          reporting requirements and clarification of policy issues.”




Renal Beneficiary and Utilization System Review   13                                OEI-07-01-00250
                               RECOMMENDATIONS

          The CMS is well aware of problems within REBUS. The CMS has expended considerable
          effort maintaining and updating REBUS, and steps have been underway for some time to
          develop a replacement system (REMIS). Nevertheless, considering the history of data
          problems with REBUS and the various delays that have stalled the implementation of REMIS,
          we recommend that CMS:

Develop a Strategic Plan for Addressing ESRD Data
Management

          The strategic plan should build on CMS’s current efforts to address data shortcomings. At a
          minimum, the plan should address the following four areas:

 <        Short and Long-Term Targets

          Data providers and end users are currently experiencing problems with REBUS. The CMS’s
          strategic plan should address target dates for updating REBUS and restoring out-of-date
          datasets. In addition, the plan should establish realistic target dates for the completion of
          REMIS and the transfer of data from REBUS into REMIS. This plan should be communicated
          to both data providers and end users for use in their planning.

 <        Data Needs

          Although CMS describes REBUS as “ . . . a mission critical system . . . ” problems with the
          timeliness, completeness, and accuracy of some datasets within REBUS raise questions as to
          the importance of these datasets to the operation of CMS’s ESRD program. The CMS should
          assess internal data needs and the needs of external data users to determine the appropriateness
          of CMS maintaining these datasets, whether in REBUS or in REMIS.

 <        Efficiency of Data Distribution

          Within the constraints of the Privacy Act and other applicable laws and regulations, CMS
          should reassess where and how ESRD data users obtain needed data End users have
          expressed a preference for receiving data directly from the source, largely because of problems
          with REBUS. If CMS decides that it is most appropriate for end users to obtain data directly
          from the source, it should factor this decision when determining which datasets should be
          maintained within REBUS and/or REMIS. The CMS also should work with end users to
          develop the most efficient methods for obtaining data from the providers. These efforts should
          improve overall efficiency and reduce duplication of effort and increased costs.




Renal Beneficiary and Utilization System Review   14                                OEI-07-01-00250
 <        On-going Communication

          All groups who interact with REBUS suggested they would benefit from improved
          communication with CMS, and CMS has agreed. The CMS should establish regular, periodic
          meetings to discuss ESRD data management issues with internal and external data providers
          and end users.

Coordinate with the Social Security Administration to Address
Errors in Basic Beneficiary Information
          Efforts to correct errors in the Identification dataset are not effective as information within this
          dataset is overwritten nightly using information received from SSA. The SSA data will
          overwrite any corrections made to the dataset. According to CMS representatives, SSA has
          given low priority to correcting errors in ESRD beneficiary records. The CMS may want to
          consider holding high-level meetings with SSA to develop a mutually acceptable solution for
          addressing problems with basic beneficiary information.




Renal Beneficiary and Utilization System Review     15                                   OEI-07-01-00250
                               AGENCY COMMENTS


          In its written response to our report, CMS acknowledged limitations with REBUS and
          concurred with our recommendations. The CMS highlighted various actions taken since
          completion of our draft report, including devising short and long-term strategic plans, initiating
          meetings with data providers and users, and reaching agreements to reduce or eliminate non-
          essential data transfers. In addition, CMS is now encouraging various data users to seek
          information directly from the source rather than relying on CMS’s system.

          We made minor changes to reflect technical comments received from CMS. The full text of
          CMS’s comments are included in Appendix A.




Renal Beneficiary and Utilization System Review     16                                  OEI-07-01-00250
                                                                                    APPENDIX A

                   DEPARTMENT OF HEALTH & HUMAN SERVICES                                Centers for Medicare & Medicaid
                   Services


                                                                               Administrator
                                                                               Washington, DC 20201
              DATE:               DEC 21 2001

              TO:                 Janet Rehnquist
                                  Inspector General

              FROM:               Thomas A. Scully
                                  Administrator

              SUBJECT: Office of Inspector General (OIG) Draft Report: Problems Pervade the Renal
                     Beneficiary and Utilization System (REBUS) (OEI-07-01-00250)

               Thank you for the opportunity to review and comment on the above-referenced draft report,
               which examines problems resulting in duplication of effort, delays, and program vulnerabilities
               in end-stage renal disease (ESRD) data management. The Centers for Medicare & Medicaid
               Services (CMS) acknowledges the many limitations of the existing REBUS operational
               environment. We have expended considerable resources to address these shortcomings and have
               developed a short- and long-term strategy to correct these problems. We are confident that our
               efforts have made considerable progress since your work on this OIG draft report was
               completed. We will continue in our efforts to keep REBUS current and accurate as we redesign
               ESRD systems to better meet our business challenges.

               We appreciate the effort that went into this report and the opportunity to comment on the issues
               it raises. Our detailed comments on the OIG recommendations follow.

               OIG Recommendation

              The CMS should develop a strategic plan for addressing ESRD data management. The strategic
              plan should build on CMS' s current efforts to address data shortcomings. At a minimum, the
              plan should address the following four areas: 1) short- and long-term targets; 2) data needs; 3)
              efficiency of data distribution; and 4) ongoing communication.


                CMS Response

                Short- and Long- Term Targets

              The CMS understands the need for a strategic plan to address the shortcomings outlined in the
               above-referenced report and has begun the development of this plan. As part of the plan, CMS
               will adopt an integrated approach to ESRD systems development. Currently, the REBUS and
             Standard Information Management System (SIMS) are independent, stand alone data repositories
              that communicate with each other via a complicated file exchange. Phase I of the Renal
                Management Information System (REMIS) redesign will concentrate on integrating these

Renal Beneficiary and Utilization System Review       17                                  OEI-07-01-00250
Page 2 -Janet Rehnquist 


systems. A detailed validation of the current REBUS and SIMS is currently underway. In Phase 

I, CMS will cleanse the current REBUS and SIMS data and integrate these data into one 

common ESRD data repository (warehouse). We are also implementing the Vital Information System for

Improved Outcomes in Nephrology (VISION) as a standard, front-end forms 

collection tool for ESRD dialysis centers as part of our Phase I effort. VISION will greatly 

improve the quality of our ESRD data warehouse. Phase I of the REMIS redesign is scheduled 

for completion in July 2002. Phase II will commence in the fall of 2002 and will concentrate on

identification of existing and new requirements. These additional user requirements will be incorporated

into logical quarterly releases of VISION/SIMS/REMIS software. Strict 

configuration management, testing procedures, and protocols will be used in this new operational paradigm

to ensure integrity of data and software. 


Data Needs and Improved Efficiency of Data Distribution

The CMS is addressing its internal data needs for the ESRD program, as well as the needs of
external customers for ESRD data,as part of its integrated ESRD systems effort. This effort
encompasses the following:

Improved Techniques for Data Transmission and Receipt

As recently as October 2000, obsolete technology affected essentially all of the processes that supplied

REBUS with data essential to its business purpose. Even in cases where improved technology was

available to the data source organizations, REBUS accepted data only in the 

modes and formats used when REBUS was developed. Since November 2000, REBUS/REMIS

developers have been working toward methods requiring less workpower. 


Patient Status Information

In November 2001, REBUS began drawing information from the ESRD networks' SIMS, whose central

server is located in CMS headquarters. (Previously, the ESRD networks had been 

required to extract information from the PC-based SIMS system and prepare 18 separate 

sequential datasets on the CMS mainframe.) 


Transplant Information

Also in November 2001, the data prepared by the United Network for Organ Sharing (UNOS)
for use in REBUS have drastically reduced in volume, in frequency, and in workpower required
for processing. Additional improvements are planned for Phase II of REMIS.

Consultation with Users of REBUS/REMIS Data

See Ongoing Communication below. REBUS/REMIS system representatives attend ongoing meetings
focusing on the data needs of customers. REBUS/REMIS managers will present information on the
integrated ESRD system effort to these audiences.



Renal Beneficiary and Utilization System Review    18                                   OEI-07-01-00250
Page 3 -Janet Rehnquist

Consultation with Providers of Data

REBUS/REMIS is "fed" by transplant and dialysis data from CMS's systems, current ESRD
patient status data from SIMS, and transplant data from UNOS.

The CMS initiated regular monthly coordination meetings with UNOS and the Health Resources
and Services Administration's (HRSA) representatives on November 7. That first conference achieved
several agreements:

C         The UNOS may discontinue weekly files for CMS -- monthly files suffice for CMS's needs.
C         The CMS does not need non-ESRD data from UNOS.
C         The CMS will not house UNOS's data to meet United States Renal Data System's (USRDS)
          needs. (USRDS will be encouraged to "go to the source" of the data; HRSA
C         has no objection to this approach.)
C         Pending consultation with the ESRD networks, CMS will no longer house transplant wait list
          data, since the networks can obtain them from UNOS (and many of them have done so). The
          networks will be encouraged to "go to the source" of the data.
C	        After confirming specifications, CMS will reinstate REBUS reports that provide information
          requested by UNOS (including information on transplant providers, deaths, and transplants not
          recorded by UNOS).

The CMS has met regularly with SIMS developers and stakeholders since the start of the SIMS

development effort (frequently through teleconferencing). In recent months, as part of the 

integrated ESRD systems effort, in-person meetings have been held to: 


C         plan the integration of SIMS data into REMIS; and 

C         plan the integration of the VISION system with REMIS and SIMS. 


The integrated ESRD systems effort will result in the use of SIMS data as the "gold standard" for

current ESRD patient status. 


Timeliness, Completion, and Accuracy

Each dataset used by REBUS is under evaluation as part of the migration to REMIS. This 

evaluation process, known as Data Quality Assurance (DQA), assesses each field within each REBUS

dataset for compliance with the documented standards ("metadata," roughly speaking) 

for that field. While there are no plans to add new functionality to REBUS, the DQA findings identify

REBUS data that are no longer usable and help determine the appropriateness of maintaining datasets

or their individual fields in REBUS/REMIS. This approach allows CMS to focus more narrowly on

information essential to the REBUS/REMIS business purpose. 


Renal Beneficiary and Utilization System Review   19                              OEI-07-01-00250
Page 4 -Janet Rehnquist

Phased Approach

Under the integrated ESRD systems effort, REBUS functionality will be transferred to REMIS.
Phase I of REMIS calls for the new Oracle-based system to "do what REBUS does" with certain
exceptions: 1) any processing errors found will be corrected; 2) any unnecessary data or
functionality will be dropped; and 3) the existing multi-platform feed of patient status
information from SIMS to REBUS will be replaced by read access to SIMS tables by REMIS.
(Acquisition activities to strengthen the SIMS hardware platform have been initiated.) The
resulting system will conform to applicable CMS standards and reasonable expectations for
modem database application systems.

Phase II will see a more thorough analysis of data needs, with the expectation of efficiency,
timeliness, reporting, and reliability improvements. For example, Phase I of REMIS is expected
to use essentially the same UNOS data as REBUS uses (although unnecessary elements will be
dropped as a result of narrowing the focus of REBUS /REMIS to essential data). However, in
Phase II, the use of UNOS data in REMIS will be fully reviewed. It is anticipated that the
current process (receipt of compact discs (CDs) containing full-file copies prepared by UNOS;
loading of data from CD to mainframe; unzipping of data on mainframe; use of mainframe
Statistical Analysis Software to prepare inputs to REBUS; adding records to the REBUS Model
204 database files via FASTLOAD) will be replaced by a more efficient process, possibly
involving selection of only the required data by code executing on the UNOS platform.

As part of the current REMIS phases, ESRD facilities will be able to use VISION to transmit
forms electronically to CMS. Information transmitted via VISION will become part of the SIMS
database. The SIMS data will in turn be treated as a part of REMIS; i.e., SIMS patient data will
not be copied into REMIS, but will be read from SIMS.

Additional activities have been instituted to make the current REBUS system more current
and accurate during the transition to the new REMIS environment.

The OIG report states that, “Data sets within the Renal Beneficiary and Utilization System are
out-of-date, incomplete, and inaccurate” and that “problems existed with 9 of the 12 REBUS
datasets in the past 12 months.” That statement is somewhat misleading. Two of those datasets,
the Social Security Administration's (SSA) district office file and the waitlist file, in no way
impact the REBUS business function. As a result of our review of the appropriateness of
maintaining the various data stores in REMIS, we have determined not to maintain these two.
We are testing new matching and analysis routines in order to better take advantage of the event
data in SIMS and more accurately update the patient status records in REBUS. We will be
loading data directly from the SIMS central repository on a regular basis. These improvements
were implemented in early December 2001. We are working closely with the networks to
improve the feedback that we give to them as a result of these regular census updates. We will
also soon be pulling the monthly medical evidence and death notice accretions directly from
the SIMS central repository, rather than have each network transmit those files to the CMS
mainframe.


Renal Beneficiary and Utilization System Review   20                                  OEI-07-01-00250
Page 5 -Janet Rehnquist 


The table below shows the current status of REBUS datasets and is an update to the same table on

page 8 of the OIG draft report.

                                              Table 2: REBUS Dataset Status

Dataset                                      Description               Status         Plans for updating
Death Notice                    Date, place, and cause of death        Current        N/A


Facility Certification          Annual provider-specific treatment     Current        N/A
                                and transplant data

Identification                  Basic beneficiary information,         99.9 Percent   Dependent on other
                                entitlement, and ESRD termination      Current        datasets
                                data

Inpatient Stay                  Hospital stay dates, provider          Current        N/A
                                number, surgery information

Medical Evidence                Medical conditions, lab results        Current        N/A

Method Selection                ESRD payment method chosen by          Current        N/A
                                home dialysis patients

Patient Status                  Verified status, dialysis type, most   Current        N/A
                                recent treatment setting

SSA District Office             Address of local SSA offices           Not Current    No plans to maintain/no
                                                                                      longer review
Transplant                      Date of transplant, organ donor data   Current        N/A

Transplant Follow-up Tracks status of beneficiary                      Current        N/A
                                transplant

Quarterly Dialysis              Aggregated information for all         Current        N/ A
                                dialysis claims in quarter

Wait List                       Potential kidney transplant            Not Current    No plans to maintain/no
                                recipients awaiting transplant                        longer review


Ongoing Communication
The CMS ESRD software development staff currently communicates with several of its data users and
partners in a variety of ways.

Annual Managed Care Enrollment and Payment Conference

The Annual Managed Care Enrollment and Payment Conference serves to assist the managed care
contractors in their understanding of CMS' s regulations, policies, and program developments that
affect the operation of managed care enrollment and payment processes.




Renal Beneficiary and Utilization System Review                  21                     OEI-07-01-00250
Page 6 -Janet Rehnquist

The ESRD and other similar workshops are conducted to enhance communication and address
concerns of managed care organizations regarding ESRD data validation processes.

SIMS/REMIS Task Groups
The CMS has created a new task group structure, comprised of CMS and network staff, in order to
address current ESRD concerns and functionality of the SIMS and REMIS software applications. This
structure will improve communication between CMS and the networks regarding reporting
requirements and clarification of policy issues. The SIMS/REMIS task groups will consist of a body of
individuals tasked to perform set functions such as identifying a need, specifying the functionality needed
in SIMS and REMIS, and finally testing each new process to ensure it works properly and meets all
required needs. The groups will have a co-chair from CMS and a co-chair from the ESRD networks.
The CMS believes it essential that the task groups be populated with network and CMS staff who are
knowledgeable about the topic and who can commit the time necessary to do the work.

WebEx Meeting Center
To facilitate communication between application developers, task groups, and CMS staff, a new

technology called WebEx Meeting Center will be utilized. WebEx is a service that enables the easy

sharing of information on the Internet (i.e., the Web) through interactive online meetings. 


Through WebEx the user can: 


C         Give any presentation to anyone, anywhere; 

C         Demonstrate software, live; 

C         Allow anyone in the meeting to view, annotate, and edit any document electronically; .

C         Share an application on your system or share the entire desktop;

C         Use remote control to provide support on the Web; 

C         Take meeting participants on a Web tour; 

C         Integrate teleconferencing into your meeting; and 

C         Add video to personalize your meeting. 



Workgroups can collaborate on any project, at any time, from anywhere; e.g., from sharing

presentations to sharing any type of document, to Web tours, to full application and desktop remote

control, and provide all the capabilities necessary to support real-time meetings on the Web.



OIG Recommendation

The CMS should coordinate with SSA to address errors in basic beneficiary information.




Renal Beneficiary and Utilization System Review   22                                OEI-07-01-00250
Page 7 -Janet Rehnquist

CMS Response
CMS has worked diligently with SSA to try and resolve disagreements between our databases. More
work needs to be done on this and we will continue to work with SSA to resolve these issues.

The first is that identification data on the SSA Numerical Identification (NUMIDENT) record may
disagree with data on the SSA Master Beneficiary Record (MBR) that updates the CMS Enrollment
Database (EDB). The second is that SSA may have documentation that contradicts information that
providers of CMS data (the ESRD networks) insist is correct. Below follows a brief history.

In 1995, when REBUS was designed, a mechanism was created to enter discrepant patient identifier
records (name, claim number, date of birth, and sex) in REBUS. The CMS would generate a list on
an as-needed basis and forward it to SSA for investigation and correction. In 1996, we realized the
data that were forwarded to SSA for update were not being changed. The CMS contacted the Office
of Disability, SSA, and was told the list may be forwarded to the SSA field offices for resolution. The
CMS again contacted SSA concerning the outstanding data correction requests. The CMS was
informed that its request would be transferred to an area responsible for data corrections. In 1997,
SSA notified CMS that it reviewed the lists and found written documentation which confirmed that the
SSA record showed the correct date of birth, which was different from what the beneficiary reported
to the network. According to SSA, its NUMIDENT file confirms the beneficiary's name and date of
birth. The CMS has noted data discrepancies between the NUMIDENT and SSA's MBR, which
updates CMS's EDB. In these instances and with surname changes, SSA suggested that the
beneficiary contact his or her local SSA field office. The SSA also noted that data corrections are a
low workload priority unless these changes have a direct effect on the beneficiary's benefits. The
SSA's average workload backlog is 6 months.

In addition to the above-described situation, we have also been attempting for the past year to
coordinate with SSA regarding the VISION project and our ability to send, and SSA's willingness to
receive, electronic ESRD form data in place of the paper forms it receives today. As with the errors,
we have been unsuccessful in obtaining SSA's firm commitment to receive data electronically.

In our discussions with OIG during the exit conference held for discussing this draft report, we strongly
suggested that OIG include more detail regarding our efforts with SSA, which we again reiterate. We
also suggest that this report in final form be sent to SSA.

Again, we appreciate the effort that went into this report and the opportunity to review and comment
on the issues it raises.




Renal Beneficiary and Utilization System Review   23                                OEI-07-01-00250
